September 25, 2008

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2008 Western Area SmartPay
         Purchase Card Program (Report Number FF-AR-08-286)

This report presents the results of our audit of the SmartPay Credit Card purchases by
personnel in the Western Area Office (Project Number 08BD006FF004). This audit is
part of the Fiscal Year 2008 Financial Installation Audits we announced on August 14,
2007. Click here to go to Appendix A for additional information about this audit.

Conclusion

Generally, Western Area SmartPay Purchase Card transactions we reviewed were
supported and complied with U.S. Postal Service policies and procedures. However, of
the 122 transactions totaling $249,130,1 we identified the following issues:

    •   Eleven cardholders made 44 working meal purchases totaling $55,162 for which
        they did not document the business necessity.

    •   Five cardholders made 37 purchases totaling $2,550 for bottled water from a
        vendor that was not listed on the national contract.

We identified a monetary impact of $57,712 for unsupported questioned costs.2 We will
report the monetary impact in our Semiannual Report to Congress. Click here to go to
Appendix B for our calculation of monetary impact.

Business Necessity for Payment of Meals Not Properly Documented

Eleven cardholders made 44 meal purchases totaling $55,162 for which they did not
clearly note on purchase requisitions the business need for continuing meetings through
the meal period. Officers and Postal Career Executive Service executives may
authorize Postal Service funds to purchase and pay for working meals, but all purchase

1
  Sixteen cardholders made these transactions.
2
  Questioned costs are costs that are unreasonable, unnecessary, unsupported, or an alleged violation of law.
Unsupported costs are questioned costs only because of missing or incomplete documentation or failure to follow
required procedures.
Fiscal Year 2008 Western Area SmartPay                                                             FF-AR-08-286
 Purchase Card Program


requests must clearly state the business necessity for continuing meetings through the
meal period.3 Cardholders stated they were unaware of the requirement to provide a
business reason on the requisition for continuing meetings through the meal period. For
those purchases not adequately supported, there is increased risk of improper credit
card use.

We recommend the Vice President, Western Area Operations:

1. Reinforce the policy for cardholders to clearly document in the purchase requisitions
   the business necessity for continuing meetings during meal periods.

Management’s Comments

Management agreed with our finding, recommendation, and monetary impact and
issued a memorandum dated September 16, 2008, to Area Office Executives, District
Managers, Senior Plant Managers, and District Finance Managers reinforcing the
requirements in MI FM-640-2001-4, Payment for Meals and Refreshments.
Management’s comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and the corrective action should resolve
the issues in the report.

Purchases Made from a Noncontract Vendor

Five cardholders made 37 purchases totaling $2,5504 for bottled water from a vendor
that was not listed on the national contract list. Postal Service policy does not permit
local buying authority when area contracts or ordering agreements are in place.5 The
Area Finance Manager stated the national contract went into effect in November 2007,
but some cardholders were not informed of the contract until April 2008.6 Once the
cardholders were informed, there were no further purchases from the non-contract
vendor. When employees do not follow procurement policies, the Postal Service has
reduced assurance that it has received the best value for the products and services
purchased and that purchases met statutory requirements. Because the area has
already corrected this issue, we are not making a recommendation at this time.



3
  Management Instruction (MI) FM-640-2001-4, Payment for Meals and Refreshments, September 24, 2001, page 2.
4
  These 37 transactions, completed between November 2007 and May 2008, were not part of our original scope.
During the audit, we noted purchases for bottled water from an unauthorized vendor.
5
  Administrative Support Manual 13, Section 722, Local Buying Authority, July 1999 (updated with Postal Bulletin
revisions through September 27, 2007).
6
  There was one purchase in May. The cardholders had to give 30 days’ notice to the company to cease providing
water for the Western Area. The one transaction in May was from the billing cycle in April.




                                                       2
Fiscal Year 2008 Western Area SmartPay                                       FF-AR-08-286
 Purchase Card Program


Management’s Comments

Management agreed with the finding and monetary impact.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, Director,
Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:    Susan M. Brownell
       Lynn Malcolm
       Vincent H. DeVito, Jr.
       Marie Martinez
       Stephen J. Nickerson
       Steven J. Juhl
       Douglas G. Germer
       Linda R. Wheeler
       Katherine S. Banks




                                           3
Fiscal Year 2008 Western Area SmartPay                                                          FF-AR-08-286
 Purchase Card Program


                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Since November 1991, the Postal Service has used the government-wide Commercial
Credit Card Program the General Services Administration administers. The current
contractor is U.S. Bank, Minneapolis, Minnesota, and the card company is VISA®. The
program within the Postal Service is called the SmartPay Purchase Card Program,
which is co-sponsored by Supply Management and Finance. The Postal Service pays
no administrative fee for the services U.S. Bank provides and earns refunds based on
the aggregate volume of Postal Service transactions. Until recently, the purchase card
was commonly referred to as the International Merchant Purchase Authorization Card
(IMPAC). This was a registered U.S. Bank trademark name, but the bank no longer
uses it.

When eBuy or other consolidated Finance-approved payment processes are not an
option, the purchase card is the primary delegated local buying authority (the authority
to buy and pay for day-to-day operational needs). Generally, a single purchase card
transaction may not be greater than $10,000.

Cardholders, approving officials, and program coordinators must follow the purchasing
guidelines for approved expenditures set by the Postal Service in Handbook AS-709,7
and various manuals, handbooks, MIs and locally issued guidance. This guidance
requires cardholders to maintain documentation, including approved purchasing
requests, sales and credit drafts and receipts, and delivery documentation. In addition,
guidance requires cardholders to maintain documentation supporting the timely review
of monthly statements by cardholders and approving officials.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if SmartPay Purchase Card Program
purchases were supported and complied with Postal Service policies and procedures.
To accomplish this objective, we judgmentally selected a sample of transactions using
the IMPAC report from the Accounting Data Mart for the three-digit district code related
to the Western Area. This approach resulted in a universe of 818 purchase card
transactions totaling $493,321. We selected the sample of area transactions based on
risk factors such as type of purchase (meals, hotels, computer, and transportation) and
vendors. Specifically, we judgmentally selected transactions that were either over
$9,000, restricted, prohibited, made on the weekend, or for purchases of pilferable
items. Using these risk factors, we selected 122 transactions totaling $249,130 made
from July 2007 through June 2008 by 16 cardholders. In addition, during our audit, we
identified 37 transactions for bottled water which we included because we noted they
were from an unauthorized vendor.

7
 Handbook AS-709, Credit Card Policies and Procedures for Local Buying, October 2003 (updated through
September 2, 2004).




                                                      4
Fiscal Year 2008 Western Area SmartPay                                            FF-AR-08-286
 Purchase Card Program



We conducted this financial audit from July through September 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on August 11, 2008, and included their
comments where appropriate.

We relied on data obtained from the Postal Service’s Enterprise Data Warehouse
Accounting Data Mart and performed specific internal control and transaction tests on
this system’s data to include tracing selected purchase transactions to supporting
documentation. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. Finally, we
interviewed supervisors and employees and observed operations.

PRIOR AUDIT COVERAGE

The OIG has not conducted any prior audits of the SmartPay Purchase Card Program
at the Western Area level. However, we issued one district audit report within the
Western Area and three area reports, as shown below.

                                            Final
                            Report        Report    Monetary
     Report Title           Number          Date     Impact         Report Results
Fiscal Year 2008         FF-AR-08-281    9/12/08    $20,215    Cardholders did not always:
Pacific Area SmartPay
Purchase Card                                                  •   Document the business
Program                                                            necessity for holding
                                                                   separate working
                                                                   meetings after normal
                                                                   business hours.
                                                               •   Seek or receive tax
                                                                   exemptions on
                                                                   purchases.
                                                               •   Enter non-cash award
                                                                   transactions into the
                                                                   eAwards system.

                                                               Cardholders and approving
                                                               officials did not follow
                                                               monthly reconciliation
                                                               procedures.




                                               5
Fiscal Year 2008 Western Area SmartPay                                            FF-AR-08-286
 Purchase Card Program




Fiscal Year 2008         FF-AR-08-279    9/8/2008     N/A      We did not identify any
Southeast Area                                                 control and compliance
SmartPay Purchase                                              issues with the Southeast
Card Program                                                   Area’s SmartPay Purchase
                                                               Card Program. Purchases
                                                               were made in accordance
                                                               with Postal Service
                                                               procurement policies.
Fiscal Year 2008         FF-AR-08-270    8/22/2008    N/A      Cardholders and approving
Capital Metro Area                                             officials did not follow
SmartPay Purchase                                              monthly reconciliation
Card Program                                                   procedures.
Fiscal Year 2007         FF-AR-07-247    9/19/2007   $59,629   Cardholders did not always:
Financial Installation
Audit – SmartPay                                               •   Make purchases from
Purchase Card                                                      authorized vendors.
Program – Colorado/                                            •   Prepare or maintain
Wyoming District –                                                 proper documentation for
Denver, Colorado                                                   purchases.
                                                               •   Obtain proper approval
                                                                   for transactions.

                                                               Cardholders and approving
                                                               officials did not follow
                                                               monthly reconciliation
                                                               procedures.




                                               6
Fiscal Year 2008 Western Area SmartPay                                  FF-AR-08-286
 Purchase Card Program


                     APPENDIX B: MONETARY IMPACT SUMMARY


                                                                Unsupported
                                                Number of      Unrecoverable
             Finding Description               Transactions   Questioned Cost
     Business necessity of working meals            44                 $55,162
     not documented.
     Purchases made from a non-contract            37                    2,550
     vendor.
                                               TOTAL                   $57,712




                                           7
Fiscal Year 2008 Western Area SmartPay                     FF-AR-08-286
 Purchase Card Program


                       APPENDIX C: MANAGEMENT’S COMMENTS




                                         8
Fiscal Year 2008 Western Area SmartPay       FF-AR-08-286
 Purchase Card Program




                                         9
Fiscal Year 2008 Western Area SmartPay        FF-AR-08-286
 Purchase Card Program




                                         10
Fiscal Year 2008 Western Area SmartPay              FF-AR-08-286
 Purchase Card Program




                                         Redacted




                                            11
